CERTIFICATE OF SERVICE
No 20-153
JOE BLESSETT
Petitioner
v.
TEXAS OFFICE OF THE ATTORNEY GENERAL GALVESTON
COUNTY CHILD SUPPORT ENFORCEMENT DIVISION
Respondent

As required by Supreme Court Rule 29(5)(c) certificate of service, I certify
that the petition for a writ of certiorari was served to the following
Corporate Entities:
1. Department of Health and Human
Services (HHS).
Office of Inspector General
P.O. Box 23489
Washington, DC 2002
USPS Tracking# 9405 5118 9956 0135 23
2. Mr. Barry McBee
First Assistant Attorney General
for the State of Texas
P.O. Box 12548
l

Austin, TX 78711
USPS Tracking # 9405 5118 9956 3601 0495 08
3. City of Galveston
Galveston County Legal Department
722 Moody, 5th Floor
Galveston, TX 77550
USPS Tracking # 9405 5118 9956 3601 0753 92
4. La Marque Child Support & Social Service Office
5300 FM 2004
La Marque, TX 77568-2402
USPS Tracking # 9400 5118 9956 3601 5997 37
5. Ms. Charlene Goodwin
Legal Administrative
Officer Office of the Solicitor General,
Rm. 5614 United States Department of Justice
950 Pennsylvania Ave.,
NW Washington, DC 20530-0001
USPS Tracking # 9405 5118 9956 3601 0513 27

2

I declare under penalty of perjury under the laws of the United States of
America 28 U.S.C. 1746(1) that the foregoing is true and correct.
Date

U \

, 2020

\

JojI Blessed Pro Se
,ap8"FM 528 #346
Webster, TX 77598
Ph. 281-667-1174
■4 .

3

